                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




January 24, 2012

MEMORANDUM FOR: 	 Simon Szykman
                  Chief Information Officer


FROM: 	                       Allen Crawley     ~ C::~---­
                              Assistant Inspector General for Systems Acquisition
                                and IT Security


SUBJECT:                      Assessment of Key Security Measures Protecting
                               Department Systems

As required by the Federal Information Security Management Act of 2002 (FISMA), the Office
of Inspector General is initiating its fiscal year 2012 audit of the Department's information
security program and practices. As further mandated by FISMA, we will review a representative
subset of Department systems to assess compliance with FISMA requirements.

Our audit objective is to assess the effectiveness of the Department's information security
program and practices by determining whether key security measures adequately protect the
Department's systems and its information. As required by the Office of Management and
Budget (OMB). we will also complete a FISMA Cyberscope report with various assessments
and performance measures. These performance measures and the audit report will be
incorporated into the Secretary's FISMA submission to the Department of Homeland Security.

We plan to begin this work immediately. The entrance conference is scheduled on January 25,
20 12, at the CIO Council meeting. We will conduct our fieldwork at selected Department and
contractor sites. If you have any questions, please call me at (202) 482-1855 or Dr. Ping Sun at
(202) 482-6121.


cc: 	   Earl Neal, Director, Office of IT Security, Infrastructure and Technology
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
